March 1, 2011

JAMES J. GALLAGHER
DISTRICT MANAGER, PHILADELPHIA METROPOLITAN CUSTOMER SERVICE
   DISTRICT

SUBJECT: Management Advisory – Processing of Collection Box Flats in the
         Philadelphia Metropolitan Customer Service District
         (Report Number NO-MA-11-002)

This report presents the results of our audit of the handling of collection box flat1 mail in
the Philadelphia Metropolitan Customer Service District (Philadelphia District) (Project
Number 11XG009NO001). This audit was conducted as a result of a hotline complaint.
Our objective was to assess the processing of collection box flat mailpieces in the
Philadelphia District. See Appendix A for additional information about this audit.

Collection box flat volume in the Philadelphia District is processed at the Philadelphia
and Southeastern Processing and Distribution Centers (P&DCs). Metered and stamped
collection box mail goes to these P&DCs for cancellation and subsequent distribution.
Employees typically use the Automated Flat Sorter Machine (AFSM) to sort and cancel
the mail, minimizing manual handling of individual mailpieces.




Illustration 1:
     Blue
   collection
boxes in front
     of the
 Kingsessing
  Post Office




1
    A flexible, rectangular piece of mail 11½ to 15 inches long or 6 1/8 to 12 inches high, or ¼-¾ inch thick.
Processing of Collection Box Flats in the Philadelphia District                                        NO-MA-11- 002



Conclusion

The Philadelphia and Southeastern P&DCs were manually processing about 4,2002
collection box flats a day, rather than using more efficient mail processing machines.
This occurred because the Philadelphia District instituted a program 8 to 10 months ago
to maintain better control of mail flow at a time when External First-Class Measurement
(EXFC)3 service scores4 for flats were low. Manually processing collection box flats
resulted in increased mail processing costs of $188,170 over a 2-year period.5

In addition, the Philadelphia P&DC did not cancel approximately 3346 stamped
collection box flat mailpieces per day. This occurred because the mail bypassed
automated cancellation, and to expedite mail flow, the P&DC did not manually cancel
stamped flats as required. Failure to cancel stamped flats resulted in $123,0597 of
revenue at risk by enabling the reuse of postage stamps. See Appendix B for our
detailed analysis of this topic and Appendix C for our monetary impact calculation.

We recommend the district manager, Philadelphia District:

1. Ensure that unit employees process collection box flats in accordance with Postal
   Service Standard Operating Procedures.

Management’s Comments

Management agreed with the findings and recommendation to process collection box
flats in accordance with Postal Service Standard Operating Procedures. They provided
a recommendation implementation date of April 1, 2011. See Appendix D for
management’s comments, in their entirety.




2
  Since these flat mailpieces did not go through the mail processing machines, we do not have any automated
machines counts to validate the volume and had to rely on Postal Service estimates. Mail carriers do not record the
number of pieces they collect except when performing a collection box utilization analysis. Even when performing the
collection box analysis, there is no breakdown of letters and flats.
3
  A system whereby a contractor performs independent service performance tests on certain types of First-Class Mail
(letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides national, area,
performance cluster, and city estimates for comparison to U.S. Postal Service goals. The Postal Service’s consumer
advocate releases the results to the public quarterly.
4
  The EXFC measurement process is as follows: mailpieces are fabricated and made into test mail and the
“Droppers” place the test mail into collection receptacles and report the time and date in the EXFC measurement
system. Next, the mail is accepted, processed, and delivered by the Postal Service. The delivered mail is received
either at a home, business address, or P.O. Box by “Reporters” who, in turn, report the time and date of receipt in the
EXFC measurement system.
5
  We calculated the additional cost from manually processing collection box flats by multiplying excess workhours by
the hourly rate for a Level 6 clerk. This figure represents additional costs for a 2-year period using a 1.17 percent
escalation factor.
6
  To be conservative, we calculated the uncancelled stamp flats as 25 percent of the 1,335 stamped flats or 334
uncanceled stamped flats per day. This represents less than 2 percent of the originating Philadelphia District flat
volume.
7
  We calculated revenue at risk by multiplying 334 uncancelled stamped flat mailpieces per day by 302 annual mail
processing days by $1.22, or the postage for a 3-ounce flat mailpiece.


                                                           2
Processing of Collection Box Flats in the Philadelphia District             NO-MA-11- 002



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Megan J. Brennan
    Kristin A. Seaver
 Jordan     M. Small
    David E. Williams Jr.
    Daniel P. Muldoon
    Corporate Audit and Response Management




                                                       3
Processing of Collection Box Flats in the Philadelphia District                                    NO-MA-11- 002



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in First-Class Mail® (FCM) volume8 over the past decade. The
Postal Service’s financial condition continued to decline over the past fiscal year (FY)
and its financial outlook is poor for FY 2011 and the foreseeable future. FY 2010
included a record loss of about $8.5 billion for the Postal Service. The Postal Service
has released its budget for FY 2011, projecting a $6.4 billion loss — one of the largest
in Postal Service history.

The Postal Service’s revenue drop in FY 2010 was driven by mail volume decline of
about 6 billion pieces from FY 2009. This volume was about 20 percent below the peak
of 213 billion pieces delivered during FY 2006. Most volume declines were in profitable
FCM — particularly significant because the average piece of FCM generated about
three times the profit of the average piece of Standard Mail. The Postal Service projects
mail volume to increase by about 2 billion pieces in FY 2011; however, it expects FCM
to decrease by 3 billion pieces with an increase other classes of mail.

In recent testimony before Congress,9 the U.S. Government Accountability Office (GAO)
found that deteriorating financial conditions and declining mail volume have reinforced
the Postal Service’s need to increase operational efficiency and reduce expenses in its
mail processing network. Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal
Service “…shall provide prompt, reliable, and efficient services to patrons in all
areas….” Further, the September 2005 Postal Service Strategic Transformation Plan
states, “The Postal Service will continue to provide timely, reliable delivery to every
address at reasonable rates.” The Postal and Accountability Enhancement Act, P.L.
109-435, Title II, dated December 20, 2006 highlights “. . . the need for the Postal
Service to increase its efficiency and reduce its costs, including infrastructure costs, to
help maintain high quality, affordable postal services. . . .”

The Postal Service deployed flats processing technology to keep operating costs down
and maintain stable rates. Flat mail is traditionally collected along with letter mail in
collection boxes. Employees use AFSMs to separate and cancel these flats. It allows
the Postal Service to move mail from manual flats processing operations at a FY 2010
cost of approximately $90.27 per 1,000 pieces processed to the more efficient
automated operation. It costs approximately $12.09 per 1,000 pieces processed using
the AFSM10010 Alone. It should also help curtail delayed mail volumes that result in
poor service performance and unacceptable customer satisfaction scores.



8
  According to the Postal Service’s FY 2010 Comprehensive Statement, “First-Class Mail revenue was $34 billion, or
51 percent of the total Postal Service revenue of $67.1 billion.”
9
  Testimony to the Congressional Committees: Mail Processing Network Initiatives Progressing and Guidance for
Consolidating Area Mail Processing Operations Being Followed, (GAO-10-731, dated June 2010).
10
   Information obtained from the Postal Service Activity-Based Cost System.


                                                         4
     Processing of Collection Box Flats in the Philadelphia District                                     NO-MA-11- 002



     OBJECTIVE, SCOPE, AND METHODOLOGY

     The objective of this review was to assess the processing of collection box flat
     mailpieces in the Philadelphia District. To achieve this objective, we conducted
     observations of or reviewed manual flat operations at the Philadelphia and
     Southeastern P&DCs, reviewed EXFC service scores within the Philadelphia District,
     analyzed manual flat collection box volume data, reviewed an OIG hotline complaint,
     and interviewed Postal Service employees.

     We conducted this review from November 2010 to March 2011 in accordance with the
     Quality Standards for Inspections.11 We discussed our findings and conclusions with
     management officials on November 19, 2010, and included their comments where
     appropriate.

     PRIOR AUDIT COVERAGE

                             Report        Final Report
   Report Title             Number             Date Report                 Results
Activation of the         NO-AR-08-004 7/10/2008           We found that not all
Philadelphia                                               activation steps were fully
Processing and                                             implemented, resulting in
Distribution                                               significant mail delays.
Center
Allegations               NO-MA-09-001 3/30/2009                           Of 18 media allegations, we
Concerning                                                                 substantiated 1, partially
Operations and                                                             substantiated 7, and were
Service in the                                                             unable to substantiate 10.
Philadelphia                                                               Management agreed with our
Customer                                                                   findings and
Service District                                                           recommendations.




     11
        These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
     Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978,
     as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
     (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
     to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.


                                                              5
Processing of Collection Box Flats in the Philadelphia District                                     NO-MA-11- 002



                                APPENDIX B: DETAILED ANALYSIS

Manual Processing of Collection Box Flats

Based on estimates provided by Philadelphia District management, the Philadelphia
and Southeastern P&DCs manually process about 4,200 collection box flat mailpieces
per day12 rather than using more efficient mail processing machines. According to
AFSM Standard Operating Procedures, sites must redirect machineable flats to an
AFSM for processing.




Illustration 2: Originating
    Philadelphia District
  collection box flats are
   separated at the Post
    Offices and labeled
   “Blue Collection Box
   Flats.” They are then
     sent to either the
      Philadelphia or
 Southeastern P&DC for
     manual sortation.




According to Postal Service officials, manual processing of collection box flats was part
of a district-wide program enacted 8 to 10 months earlier in an attempt to improve EXFC
service scores.13 Philadelphia District officials indicated that EXFC scores for flats were
below letter scores and they felt they could improve these scores by having employees
manually process collection box flats.




12
   Since these flat mailpieces did not go through the mail processing machines, we do not have any automated
machines counts to validate this volume.
13
   Our analysis revealed that Philadelphia P&DC EXFC service scores for originating stamped flat mailpieces actually
declined from 93.08 percent in Quarter 4, FY 2009 to 88.39 percent in Quarter 4, FY 2010.




                                                         6
 Processing of Collection Box Flats in the Philadelphia District                                         NO-MA-11- 002




 Illustration 3: Collection
 box flats are manually
 sorted at the
 Philadelphia P&DC to the
 5-digit delivery ZIP code.
 This manual processing
 bypasses the AFSM.




 Manually handling mailpieces increases mail processing costs. Our analysis revealed
 that manually processing collection box flats resulted in an additional 3,675 workhours
 at a cost of $188,170 over a 2-year period (see Table 1 below).

          Table 1: Monetary Impact of Manually Processing Collection Box Flats

      P&DC         Estimated                Manual            AFSM             Excess             Additional Cost
                Annual Manual              Workhours         Workhours        Workhours            Incurred from
                Collection Box                (2)               (3)              (4)            Manually Processing
                  Flat Volume                                                                   Collection Box Flats
                       (1)                                                                               (5)
 Philadelphia        906,000                   2,840             179              2,661              $136,262
 Southeastern        362,400                   1,136             122              1,014               $51,908
 Totals 1,268,400                              3,976             301              3,675              $188,170

 Table Notes:

(1)   Philadelphia District management estimates that the Philadelphia and Southeastern P&DCs manually process
      daily collection flat mailpieces of 3,000 and 1,200, respectively, or 4,200 collection box flat mailpieces. We based
      annual volume on 302 days per year.
(2)   We based the number of manual and automated workhours needed to process collection box flat volume on the
      FY 2010 AFSM-AI (Automated Induction) productivities of 5,068 and 2,965 pieces per hour for originating
      collection box flats at the Philadelphia and Southeastern P&DCs, respectively.
(3)   We based the number of manual workhours needed to process collection box volume on the national manual
      flats productivity of 319 pieces per hour.
(4)   The difference between manual and AFSM workhours.
(5)   We calculated the additional cost from manually processing collection box flats by multiplying excess workhours
      by the hourly rate for a Level 6 clerk. This figure represents additional costs for a 2-year period using a 1.17
      percent escalation factor.




                                                             7
Processing of Collection Box Flats in the Philadelphia District                                       NO-MA-11- 002



Cancellation of Collection Box Stamped Flats

The Philadelphia P&DC did not cancel approximately 33414 stamped collection box flats
because manually processing the flats bypasses automated cancellation. These flats
represent less than 2 percent of the originating Philadelphia District flat volume.
Postal Service policies require mail to be adequately prepared, which entails dumping,
culling, facing, traying, and canceling it. When a mailpiece is not canceled by
automation, it should be manually canceled. In an effort to expedite mail flow, the P&DC
did not cancel stamped flats as required, resulting in $123,05915 of revenue at risk by
enabling the reuse of postage stamps.




Illustration 4: Collection
  box flats are manually
    processed without
    canceling postage
          stamps.




14
   According to the Origin Destination Information Network, the Philadelphia District has an average daily volume of
1,335 stamped flats originating in Philadelphia and delivered to Philadelphia customers. All of these are manually
sorted bypassing AFSM cancellation. Of this volume, based on our observations, we estimated that at least 50
percent were not cancelled with an ink stamp. To be conservative, we calculated the uncancelled stamp flats as 25
percent of the 1,335 stamped flats or 334 uncancelled stamped flats per day.
15
   We calculated revenue at risk by multiplying 334 uncanceled stamped flat mailpieces per day by 302 annual mail
processing days by $1.22 or the postage for a 3-ounce flat mailpiece.


                                                          8
Processing of Collection Box Flats in the Philadelphia District                  NO-MA-11- 002



               APPENDIX C: MONETARY AND NON-MONETARY IMPACTS

                                           Monetary Impacts

                Finding Impact                          Category         Amount
           Philadelphia P&DC                  Funds Put to Better Use    $136,262
           Southeastern P&DC                  Funds Put to Better Use     $51,908
                     Total                                               $188,170

                                              Other Impacts

                 Finding Impact                         Category         Amount
            Philadelphia Metro                    Revenue at Risk        $123,059

Notes

       Funds put to better use are funds that could be used more efficiently by
        implementing recommended actions. We calculated the additional cost from
        manually processing collection box flats by multiplying excess workhours by the
        hourly rate for a Level 6 clerk. This figure represents additional costs for a 2-year
        period using a 1.17 percent escalation factor.

       Revenue at risk is revenue the Postal Service is at risk of losing. We calculated
        revenue at risk by multiplying 334 uncanceled stamped flat mailpieces per day by
        302 annual mail processing days by $1.22 which is the postage for a 3-ounce flat
        mailpiece.




                                                       9
Processing of Collection Box Flats in the Philadelphia District   NO-MA-11- 002



                         APPENDIX D: MANAGEMENT’S COMMENTS




                                                      10
